NO._____________
IN THE SUPREME COURT OF THE UNITED STATES
LUIS LEON PINA and
SAUL ZAMORA DE ANDA,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(7), Petitioners ask leave to file the
accompanying Petition for Writ of Certiorari to the United States Court of Appeals for
the Fifth Circuit without prepayment of costs and to proceed in forma pauperis.
Petitioners were represented by counsel appointed under the Criminal Justice Act, 18
U.S.C. ยง 3006A(b) and (c), in the United States District Court and on appeal to the
United States Court of Appeals for the Fifth Circuit.
Date: January 8, 2021

Respectfully submitted,
MARJORIE A. MEYERS
Federal Public Defender
Southern District of Texas
Attorney of Record

KATHRYN SHEPHARD
Assistant Federal Public Defender
Attorneys for Petitioners
440 Louisiana, Suite 1350
Houston, Texas 77002
Telephone: (713) 718-4600

